                                                         NATIONAL SCIENCE FOUNDATION
                                                          OFFICE OF INSPECTOR GENERAL
                                                            OFFICE OF INVESTIGATIONS

                                                 CLOSEOUT MEMORANDUM

 Case Number: A09110084                                                                      Page I of I



                 We assessed an allegation 1 that a proposal submitted to NSF improperly excludes as coPI
       ) an individual whose research forms a substantial part of the proposal? However, the proposal
         properly cites the individual's research as preliminary results, 'and places it in perspective with
         the proposed research. There is no text overlap between a draft manuscript describing the
         individual's research and the submitted proposaL No violation of NSF rule or regulation is
         apparent.


                     Accordingly, this case is closed.




          I   Redacted.
          2   Redacted.




NSF OIG Fonn 2 (I 1/02)
